                                                                                       Report No. AUD-07-010
                                                                                              September 2007


                                       Division of Resolutions and Receiverships
                                       Protection of Electronic Records
                                       Results of Audit
Background and Purpose
of Audit                               DRR established a number of important controls to safeguard the
                                       sensitive electronic information it collects and maintains as a result of
Key to achieving the FDIC’s            resolution and receivership activities at FDIC-insured financial
mission of maintaining stability       institutions. Such controls include policies, guidelines, and business
and public confidence in the           rules for protecting sensitive electronic information and an Information
nation’s financial system is           Security Manager to promote compliance with FDIC and DRR security
safeguarding the sensitive             policies, procedures, and guidelines. However, access to sensitive
information it collects when           resolution and receivership information (including PII) stored on the
conducting resolution and              FDIC’s internal network was not adequately protected. In addition,
receivership activities at FDIC-       sensitive information stored on portable information technology
insured financial institutions. Such
                                       equipment was not encrypted as prescribed by FDIC policy and DRR
information includes, for example,
reports on potential financial         guidelines. Further, DRR’s guidelines for safeguarding sensitive
institution failures and sensitive     information did not address e-mail communications. These deficiencies
personally identifiable information    increased the risk of unauthorized use of sensitive information.
(PII) for institution depositors,
borrowers, and employees.              Recommendations and Management Response

Much of the sensitive information      DRR and Division of Information Technology (DIT) security officials
handled by the FDIC falls within       took prompt action to restrict access to the vulnerable sensitive
the scope of several statutes and      information that we identified during the audit and were taking
regulations intended to protect        additional steps to safeguard sensitive resolution and receivership
such information from                  information at the close of our audit. The report contains four
unauthorized disclosure. These
                                       recommendations addressed to the DRR Director to implement
statutes and regulations include the
Privacy Act of 1974; the Federal
                                       appropriate security control measures to address the security control
Information Security Management        deficiencies referenced above. The DRR Director concurred with all
Act of 2002; and the FDIC’s Rules      four recommendations.
and Regulations--Parts 309,
Disclosure of Information, and         This report addresses issues associated with information security.
310, Privacy Act Regulations.          Accordingly, we do not intend to make public release of the specific
                                       contents of the report.
The audit objective was to evaluate
the design and implementation of
selected controls established by the
Division of Resolutions and
Receiverships (DRR) for
safeguarding sensitive electronic
information collected and
maintained as a result of resolution
and receivership activities at
FDIC-insured financial
institutions.
